<html>
<title> - REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH CONGRESS (CONTINUED)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH 
                          CONGRESS (CONTINUED)

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                Held in Washington, DC, February 3, 2010

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
55-537                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH 
                          CONGRESS (CONTINUED)

                                _________

                      WEDNESDAY, FEBRUARY 3, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:38 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Davis of 
California, Davis of Alabama, Lungren, McCarthy, and Harper.
    Staff Present: Jamie Fleet, Staff Director; Matt Pinkus, 
Professional Staff/Parliamentarian; Kyle Anderson, Press 
Director; Joe Wallace, Legislative Clerk; Greg Abbott, 
Professional Staff Member; Shervan Sebastian, Staff Assistant; 
Victor Arnold-Bik, Minority Staff Director; Karin Moore, 
Minority Legislative Counsel; Mary Sue Englund, Minority 
Professional Staff Member.
    The Chairman. I would like to call the Committee on House 
Administration to order and thank you all for being here, and 
thank Chairman, Mr. Dreier, for being here, from the Rules 
Committee and we appreciate that.
    As you know, when we first had the hearing a while ago, a 
year ago when we were doing the resources for your committee, 
we thought it would be a good idea for you to come back after a 
year and let us know how you all are doing and maybe we could 
help you if you are not doing okay and hopefully you are doing 
okay. So it is as far as I got to say; as far as Mr. Lungren, I 
recognize you for any comments you would like to make.
    Mr. Lungren. Thank you very much, Mr. Chairman. Thank you 
for agreeing to this idea that we have the committees come back 
and report to us after a year. We find out how the funding is 
going. We find out how the commitment has been about the staff 
ratios and we have had, I think, good hearings I think thus 
far, we only have a few more left. And I thank you, Mr. 
Chairman, for conducting these hearings. And I think we have 
actually accomplished something and helped members reach their 
objective, which is to have the committees work. And I look 
forward to working with you on this, thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. No remarks.
    The Chairman. Mr. Chairman.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Mr. Chairman, and Mr. 
Lungren. And Mr. Harper thanks to all of you for all being 
here. Let me first say that the distinguished chairwoman of the 
Committee on Rules, Ms. Slaughter is in a meeting and she very 
much wants to be here and is hoping to be here. I know 
basically what she is going to say, I think, and I will tell 
you that from my perspective, by and large, it has been so far 
so good. We have traditionally had the 2/3, 1/3 ratio which we 
began in 1995 and that has continued. And while we have control 
of the staffing funding, staff funding, that has worked out 
well. The other areas of equipment and those sorts of things we 
don't directly have control over, but I am happy to report that 
due to the close working relationship that we have at the staff 
level, that we have never been denied any opportunity to have 
the necessary resources that we need to do our job as members 
of the minority on the Rules Committee.
    I will say that there is one exception and one thing that 
does concern me greatly. I am sitting here at this moment 
looking right into a camera as I am testifying before you. 
There are a grand total of three committees in the House of 
Representatives that don't provide regular televised coverage 
of the proceedings of their committee for the American people. 
Again, I would argue that we as members in the minority and 
Republicans have been treated fairly when it comes to staffing 
and equipment and resources that we need. But the American 
people have been denied by virtue of the fact that the Rules 
Committee does not have this regular opportunity for the 
American people to see the committee in action and working.
    The other two committees are the Intelligence Committee and 
the Committee on Standards of Official Conduct. I think it is 
very understandable that the Intelligence Committee and the 
Ethics Committee would not have regular televised coverage.
    The Rules Committee, on the other hand, has a very 
interesting story. When I first went two decades ago, went on 
the Rules Committee, David Broder, the Dean of the Washington 
Press Corps, said to me, you know David, that committee up 
there is very, very small--that hearing room, by design. Broder 
looked at me and said, it is to keep us out. And there are 
stories throughout history of the action of the Rules 
Committee, things that have been done in a secretive way. I 
remember Czar Reid was known to have--I was told this by the 
late Robert Novak, who I suspect covered Czar Reid's news 
conferences. When he came out he said after a meeting with 
members of his Rules Committee, gentlemen, to the gathering 
press, we have just perpetrated the following outrage in 
defining, describing the work product of the Rules Committee.
    Now as you know very well, the Rules Committee often can 
predetermine, almost predetermine the outcome of legislation on 
the House floor. So whether it is taxing, spending foreign 
policy initiatives, virtually everything that we do before a 
piece of legislation comes to the floor, a special rule is 
reported out. The committee chairman and ranking, member and 
members who seek to offer amendments come before the Rules 
Committee.
    And unfortunately those proceedings are not only--they are 
not televised and they are not even made available on line. Now 
C-SPAN, on occasion, does come to the Rules Committee and they 
are relegated to a supply closet in the back of the room, which 
is challenging because sometimes, as you know, the Rules 
Committee hearings can go on for hours and hours and hours. And 
I look back at the C-SPAN employees who are relegated to this 
cramped closet and we could--when I was--when we were in the 
majority, I worked to lay the groundwork for us to have 
television coverage, the Rules Committee and I just don't see 
any reason why we should not provide that opportunity for the 
American people to see the Rules Committee's work in action. We 
know that this became a big issue in the Presidential campaign, 
transparency, accountability and disclosure are all guides that 
we have. And I think the final step before a measure moves to 
the floor of the House of Representatives should, in fact, be 
transparent, that is the Rules Committee. And so I hope that we 
will be able to have a chance to put those proceedings before 
cameras.
    I will say that, again, Mrs. Slaughter and members of her 
staff have been very accommodating in dealing with the 
challenges that we face. And I do feel strongly though Mr. 
Chairman, and Mr. Lungren, and Mr. Harper about the need for us 
to do what you do right here in this committee. So thank you 
very much.
    [The statement of Mr. Dreier follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I understand. Thank you. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman, I wonder if 
you could venture a guess, Mr. Dreier, as to which institution 
will be the first to televise their proceedings, the Rules 
Committee or the U.S. Supreme Court?
    Mr. Dreier. Now, that is an interesting question and I 
don't know. I certainly--I know that there is a rigorous debate 
as to whether or not the United States Supreme Court provides 
coverage. I did hear just yesterday that in our State of 
California, that the proceedings on the Proposition 8 campaign 
were not televised, but our friends in Hollywood have just put 
together an entire cast and they are reenacting, having looked 
at the transcripts of the court proceedings there and they are 
making apparently a motion picture out of it.
    Mr. Lungren. I am sure it will be nominated at the next 
Academy Awards.
    Mr. Dreier. It might.
    Mr. Lungren. They seemed to nominate a lot of movies nobody 
goes to.
    Mr. Dreier. Now they have got 10 from which to choose for 
best picture.
    Mr. Lungren. I know. Blind Side is a great one, by the way.
    I would like to compliment the Rules Committee on your 
restrained budget request last year. I think it was a modest 
1.8 percent increase from 2008 to 2009, total increase for the 
110th congress about 4.2 percent. One of the lowest, I think, 
you are in the bottom three of the requests in the entire 
House, we appreciate that.
    As of December 31st, your committee has about 17 percent 
unexpended balance. And as you know after a year that returns 
to basically the Treasury. So once again, your committee's done 
a good job there.
    Do you have any insights as to how your committee was able 
to achieve a 17 percent savings while still starting off with a 
modest budget relative to other requests?
    Mr. Dreier. Well, let me first say that you know more about 
the operations than I from what you just outlined. I wasn't 
familiar personally with all of those details. And I would say 
that if you look at the work of the Rules Committee, it is 
necessary that we have the resources, but we have been able to 
do that. Frankly, there have not been too many hearings held on 
legislative issues beyond the actual reporting out of the 
special rules for the House Floor. We did have one a couple of 
months ago, but that may be one of the reasons. The Rules 
Committee actually has jurisdiction on a number of issues, 
budget process. If you look at things like trade, one of the 
reasons I have been very involved in trade issue is so-called 
fast track negotiating authority is there. We as a committee 
have not really gotten into a lot of those issues recently. We 
did that in the past. And of course, holding those hearings and 
doing research on it does take resources and that may be one of 
the reasons that we have been able to keep those numbers as low 
as possible.
    I do say also that I think that as we look at the fact that 
the American people are trying to deal with cuts, I had a Town 
Hall meeting last night and talked to a woman whose said that 
her income has gone from $40,000 a year to $16,000 a year. 
There are a lot of people hurting, and the idea of trying to, 
within the operations of the Congress, be as circumspect as 
possible recognizing how precious those taxpayer dollars is is 
an important thing, and that is why I support the idea of 
trying to turn back as much as we can.
    Mr. Lungren. Thank you very much.
    Mr. Dreier. Thank you.
    The Chairman. Thank you. Thank you, Mr. Dreier. Also for 
the record, I want to make sure that Mr. Dreier is shown that 
he has sympathy and feelings for C-SPAN.
    Mr. Dreier. C-SPAN employees. You know the employees who 
are relegated to the broom closet.
    The Chairman. Now he is correcting me.
    Mr. Dreier. No, I have praise for C-SPAN but no sympathy 
for them. But some of the employees could be treated a little 
better if we just do what you guys do right here.
    The Chairman. I was trying to get you by here.
    Mr. Dreier. Yeah, thanks we need all the help we can.
    The Chairman. You just wouldn't take it.
    Mr. Dreier. Thanks very much, fellas.
    The Chairman. Thank you.
    While we are waiting for Mr. Rahall, I need to submit for 
the record an extend the statement that highlights our own use 
of the committee funds for the first session of 111th Congress 
including in the statement is a brief summary of our 
committee's oversight activities, financial affairs and to 
continue to the 2/3, 1/3 relationship with the ranking member, 
Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman, I 
appreciate that. And I want to say that it is a pleasure 
working with you. We have probably had a great working 
relationship in part because we haven't had any contentious 
issues thus far. I suspect with today's hearing, we may start 
on some differences of opinion, but in terms of the work that 
we do in this committee on behalf of our colleagues and on 
behalf of the institution, you and I are on the same page and I 
appreciate that very much. I do appreciate the 1/3, 
2/3s and the fairness with which you have accommodated my 
request and the request of others on the minority side, so 
thank you.
    The Chairman. Well, we are going to be, without question, 
from time to time, disagreeing, but we are not going to be 
disagreeable. Thank you.
    I understand Mr. Rahall is on his way, but rather than sit 
here looking at each other, I wouldn't mind starting with Mr. 
Hastings. I know you two get along because everybody gets along 
with you and Mr. Rahall. So if you don't mind, we will start 
with you. Mr. Lungren do you have anything you need to say?
    Mr. Lungren. No.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Okay, thank you Mr. Chairman and Ranking 
Member Lungren and other members of the committee. I appreciate 
the opportunity to make brief comments considering the Natural 
Resources Committee and the funding from the perspective of the 
Republican minority. First, we do receive a full third of the 
staff salary funds to administer and we receive 20 staff 
positions out of the 69 allocated to the committee. In an 
arrangement that predates my time as ranking member, nine of 
the 69 positions have been deemed administrative positions that 
support both sides of the committee. The majority pays the 
salaries of these nine from their 2/3 share. And while most of 
these tasks performed by these 9 are managed by the majority, 
we have no complaints over the responsiveness or the services 
rendered to minority over the past year.
    Second, a sizable portion of the unspent committee funds 
for 2009 is attributable to unspent staff funds from the 
minority's
1/3 share. One, I have always believed that the funds allocated 
to the committee and personal congressional offices should be 
allocated frugally and wisely. During my service in the House, 
for example, I have returned funds from my personal office 
allocation each and every year.
    The other reason for the unspent funds is that 2009 was my 
first year as ranking member on this committee. And as such, 
there was a turnover on the Republican staff and not all 
staffing positions there were filled for the entire year. For 
example several staff departed near the end of the year and 
these positions are just now being filled. In fact, just last 
week I announced a hiring of three new staff. So it is my 
expectation that we will soon be at full staff levels in 
preparation for this second session.
    In conclusion, I have no concerns or complaints about the 
administration of committee funds. Chairman Rahall and I do 
disagree over a fair number of policy matters under our 
committee's jurisdiction, but I believe we share a common 
belief that political or policy differences should not be 
injected into the committee budget and administration matters. 
And it is in that regard that I very much appreciate his 
actions as we did this last year and I certainly believe that 
will be the same as we move forward this year. So thank you 
very much for the opportunity to testify.
    The Chairman. Thank you.
    [The statement of Mr. Hastings follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. And thank you, Mr. Rahall, for joining us.

STATEMENT OF THE HON. NICK RAHALL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Rahall. Thank you, Mr. Chairman. While I did not hear 
all of my ranking member's comments, I am sure I associate 
myself with them.
    Mr. Hastings. You absolutely do, 110 percent.
    Mr. Rahall. The first time in 110 years did you say?
    Thank you, Chairman Brady and Ranking Member Lungren, for 
the opportunity to be here today and update you on the status 
of the Committee on Natural Resources budget for the 111th 
Congress. I do ask unanimous consent to submit my full 
statement for the record, and I will now summarize my 
statement.
    The Chairman. Without objection, so ordered.
    Mr. Rahall. Our committee's budget for the first session 
was 8,125,517 and almost 7.4 million was spent. There also 
remains roughly 67,000 in an outstanding first session 
obligation's primarily for supplies and equipment. As with all 
the committees, the staff salaries account for the lion's share 
of the budget. In our case, the majority has 40 staff slots and 
the minority has 20 and nine staffers are shared employees such 
as the Chief Clerk and the systems administrators. The minority 
fully controls 1/3 of the budget for staff salaries, the rest 
of the budget is shared and used primarily for equipment and 
travel without regard to political party. It is truly a 
bipartisan budget, and I would note that all these resources 
are put to good use by our committee, we shepherded almost 100 
individual bills through the House last session. And I should 
note that one of those bills, the omnibus parks and public 
lands bill passed early last year including 168 House and 
Senate measures.
      So the bills we advance do not rename or name post 
offices or Federal buildings, rather they are substantive 
pieces of legislation, advancing natural resources, Native 
American and U.S. territorial policies. I thank you for this 
time and urge for the adoption of our budget if you so see in 
your wisdom.
    The Chairman. Thank you.
    [The statement of Mr. Rahall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Lungren.
    Mr. Lungren. The gentleman is not engaged in the effort to 
get rid of the conspiracy of unnamed post offices? That is a 
rhetorical question. We do spend a lot of time making sure we 
get rid of that problem.
    When you were both here last time--first of all, in your 
written statement, Chairman Rahall, you noted an increase in 
the cost of certain vendor services such as Web site 
development. I remember when you were here before us last time, 
the ranking member talked about upgrading the minority Web site 
and there might be some costs involved in that. Has that been 
taken care of, any problem with that?
    Mr. Hastings. No, and thank you for inquiry, no. Our Web 
site now is up and running as we anticipated it would when we 
were here last time, so it is fully functioning right now.
    Mr. Lungren. Good, that was the only question I had.
    Mr. Hastings. The answer to the question is yes.
    Mr. Lungren. That is the only question I had because that 
was sort of in the air when you both testified here last time. 
I am glad that has gone forward, thank you.
    The Chairman. Thank both of you and appreciate your 
attendance.
    The committee on House Administration will stand in recess 
until the last vote in approximately 45 minutes.
    [Recess.]
    The Chairman. I would like to call the Committee on House 
Administration to order and thank you all for being here. We 
are going to take Judiciary, Mr. Conyers and Mr. Issa is going 
to sit in for Mr. Smith, I think he is doing double duty today. 
Thank you for coming, as you said last year when we did the 
funding we wanted you to come back and let us know how you are 
doing and any problems or anything we would be helpful with. We 
appreciate you coming back and meeting again with us. Mr. 
McCarthy, do you have anything?
    Mr. McCarthy. No, let them get started.
    The Chairman. You can start, Chairman Conyers.

    STATEMENT OF THE HON. JOHN CONYERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Chairman Brady, Ranking Member McCarthy, I am 
happy to be here with my good friend, Darrell Issa, to make 
sure that we give the clearest status report on the way the 
House Judiciary Committee uses the resources that are 
appropriated to us. I want to put in an apology for Lamar 
Smith, but he had a commitment that required him to remain on 
the floor.
    In accordance with House Res. 279, we were allotted $18.8 
million for expenses for the 111th Congress. The committee's 
funding was $9.2 million for the first session, $9.5 for the 
second session. And it is my understanding that the 2/3, 1/3 
split for the minority payroll has been satisfactory over the 
years with my Republican colleagues.
    During the calendar year 2009, the committee spent $8.3 
million on staff compensation. Our operational expenses, travel 
equipment, communications, printing for the calendar year was 
$547,799. To implement the committee's oversight and 
investigation agenda there were a total of 96 hearings held. 
The committee convened 21 markups, of which 35 bills were 
reported. We are one of the busiest committees in the House of 
Representatives.
    The committee special impeachment task force held 6 
hearings establishing its justification for the impeachment of 
the former Judge Samuel Kent and G. Thomas Porteous. On June 
19th of last year, the House voted unanimously to recommend the 
articles of impeachment against Mr. Kent to the Senate. In 
support of the committee's bipartisan impeachment efforts, 
slightly more than a half million dollars was allocated for 
that work. And of these funds, $218,000 represent consultants 
contract and operational funds, a total of $318,000.
    At the conclusion of the first session the task force 
operational funds for 2009 totaled $536,915. We have been very 
careful with the allocation of funds because we have so many 
members of the Judiciary Committee that also serve on this 
honorable body, and so we are pretty careful in the reports 
that we file when we come before you. The committee statement 
of expenses and fund balance as of December of last year 
indicated a balance of--wait a minute--$8,909. This figure with 
increase to reflect the end-of-year expenses. And so we 
anticipate in the neighborhood of $106,000 unspent balance.
    I appreciate the opportunity to briefly outline our 
accounting of our resources and we have further backup material 
for your approval and analysis. And I thank you for this time.
    [The statement of Mr. Conyers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, Ranking Member Lungren, 
I would ask unanimous consent that Mr. Smith's entire statement 
be placed in the record.
    The Chairman. Without objection so ordered.
    [The statement of Mr. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    STATEMENT OF THE HON. DARRELL ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you. It is a great honor to represent 
Ranking Member Smith here but I will speak as much for myself 
and perhaps even for Ranking Member Lungren. We have a 
committee that has been both frugal and effective. Chairman 
Conyers has been very fair in the allocation of resources. It 
has enabled both the majority and minority to do their job in a 
difficult time and a very busy time. The committee's operations 
are to the full satisfaction of the minority through vigorous 
negotiation with the majority. Our needs for both personnel and 
hardware and software and other assets necessary to do our job 
have been answered. And we thank this committee, we have no 
unresolved issues and we look forward to the second session 
being equally productive under the leadership of the Chairman. 
And with that, I yield back.
    The Chairman. Thank you.
    [The statement of Mr. Issa follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Lungren, any questions.
    Mr. Lungren. Thank you, Mr. Chairman. I would like to 
under-score what the Chairman said. One of the necessary tasks 
of the Judiciary Committee is to investigate and follow through 
on impeachment proceedings if the facts warrant. As a member of 
the committee's task force, I can tell you we have done our job 
diligently. We did, in fact, bring to the floor of the House an 
impeachment resolution of one Federal judge last year. We are 
in the throes right now of proceeding on a second one; those 
are costly investigations to make sure that we are fair to the 
subject of those impeachment proceedings and fair to those 
complainants who brought evidence before us, and that is just 
an expensive proposition. And I would say that I think the 
Judiciary Committee has done an outstanding job in that regard. 
Those are the kinds of funds that have to be expended in ways 
that maybe are not always fully anticipated, yet they are being 
done within the budget of the committee. And I thank the 
chairman and I thank Mr. Issa; in absentia, I thank Mr. Smith 
for their leadership and I would yield back.
    The Chairman. Mr. Harper.
    Thank you all for being here today, thank you.
    Mr. Conyers. Thank you very much. Could I just add with all 
the judiciary members, Zoe Lofgren included, the impeachment 
task force is not something we are enthusiastic about or take 
any pleasure whatsoever in doing. It is very disturbing matter 
that occasionally, and thank goodness it is where we have 
members of the bench whose conduct or actions require us to 
make these investigations and we do so as soberly and as 
responsibly as we can. I thank you again, Chairman Brady, for 
your indulgence and our reporting to you over the years.
    Mr. Lungren. Do we have three of the youngest staff members 
of the Judiciary Committee in the front row? I have seen that 
they have been very attentive and I didn't know whether they 
were going to testify. They have somewhat of a passing 
resemblance to Mr. McLaughlin.
    Mr. Conyers. It is how we reduce our expenses in our 
committee.
    Mr. Issa. Mr. Lungren, although a snow day is the excuse, 
it is part of circumventing the child labor laws in order to 
get more staff. [Laughter.]
    The Chairman. Thank you.
    We would like to ask Ms. Slaughter to come up.
    Chairlady Slaughter, Mr. Dreier was here already to 
testify, he had to leave and he knew you would be a little late 
so we would like to hear from you right now.
    Ms. Slaughter. Thank you very much.
    The Chairman. Just push that button.<greek-l>fb deg.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. It is on, I think. There we go.
    I do appreciate your kindness today in accommodating my 
schedule change. And I certainly appreciate Mr. Dreier for 
giving me the opportunity to come at a different time than when 
he was here. I am really pleased to provide you an update on 
how the Committee on Rules expended funds in the first half of 
the 111th Congress. As you know, the Committee on Rules helps 
set the parameters of the debate for specific pieces of 
legislation. It has the unique role of considering the vast 
majority of complex legislative initiatives before they ever 
get to the House floor. Furthermore, the committee maintains 
jurisdiction over many other issues of critical importance to 
the operation of the House. Everything from the opening day 
Rules package to ensuring the ability of the House to function 
in times of crisis. This has been an extremely busy and 
productive year for us as it was for the entire Congress.
    Let me give you a few examples, we held 79 hearings in 
session 1 of this Congress, we used over 400,0000 pieces of 
paper of which we are ashamed, we are trying to use less. And 
had almost 600 Members testify at our meetings. As always, the 
first session of Congress is intense, and we were not surprised 
by this level of activity. Besides moving historic pieces of 
legislation on issues like financial regulatory reform and 
health care reform, the committee also handled the economic 
recovery bill. Our expectation is that the heavy workload will 
continue in the current year with an intensified focus on job 
creation.
    In light of the economic climate we have tried to be 
conservative in our budget, and I believe we have been. We have 
a modest 1.8 percent increase in 2009 over 2008, in keeping 
with belt tightening elsewhere. Our budget is lean, with just 
enough in it to keep the committee functioning effectively on 
behalf of Members, staff, and the public.
    Part of our spending in this session of Congress will be 
geared toward making smart technology purchases that will 
assist staff and conserve resources. For example, as we try to 
lessen the amount of paper we use, we are considering ways we 
can put an even greater proportion of our work product into 
electronic form. This makes the process faster and ultimately 
saves money. Part of that push will be a continued spending on 
the internal Rules database that we have talked about in 
previous years called the Committee on Rules Electronic 
Database or CORE.
    The budget for the last year maintained the Rules 
Committee's tradition of giving the minority one third of the 
total staff slots allocated to us along with control over one 
third of the committee salary funds. The other categories 
represent joint funding. We work with the minority to ensure 
that the necessary resources are made available to them.
    In summary, our budget for the first session of Congress 
was put together with care and represents an appropriate level 
of funding for our activities. We are planning to continue this 
tradition in the next year with additional investments that 
will help us better serve the House and the American people.
    I would also like to respond briefly to the complaint that 
we do not have cameras in our meeting room. All of you who have 
been to the Rules Committee know that you could probably fit 
six of our committee rooms within this single room. We are 
greatly strapped for space. However, all Rules meetings are and 
have always been open to cameras and the press. We never 
prevent reporters from covering us and we always invite C-SPAN 
and other TV outlets to cover all of our hearings. In addition 
we also use temporary cameras in our hearing room for all major 
legislation.
    Our meetings on health care reform, stimulus, and financial 
services bills were all broadcast widely by the cameras that 
were at the Rules Committee. Cameras also film our other 
hearings, like the one the Rules Committee held on preserving 
antibiotics for humans. To encourage the We never prevent 
reporters from covering us and we always invite C-SPAN and 
other TV outlets to cover all of our hearings. In addition we 
also use temporary cameras in our hearing room for all major 
legislation.
    Our meetings on health care reform, stimulus, and financial 
services bills were all broadcast widely by the cameras that 
were at the Rules Committee. Cameras also film our other 
hearings, like the one the Rules Committee held on preserving 
antibiotics for humans. To encourage the
openness of our meetings, we have upgraded the microphone 
system in our hearing room, so the TV coverage is improved and 
there is a better sound quality. We have taken other steps to 
improve openness in the last year.
    We provide copies of the rule to the public immediately and 
offer electronic copies for those reporters who cannot attend. 
Reporters get a copy of the rule at the same time the Members 
get it. Our website is one of the best in the House. We provide 
the entire committee report, copies and summaries of all 
amendments, and links to legislation.
    I will be happy to answer any questions you may have and I 
thank you again for your consideration this morning.
    The Chairman. Thank you. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. Madam 
Chair, you commented, and I mentioned before when Mr. Dreier 
was here about the modest increase that you had this Congress 
over last Congress, that is a compliment to you and to Mr. 
Dreier and the way you are running the committee. I notice that 
as of December 31st, at least as reported to this committee, 
your committee had unexpended funds of around 600,000, about 17 
percent of your budget. Can you give us any idea how you were 
able to achieve those savings or is that the result of not 
having full staffing?
    Ms. Slaughter. No, I think we have some turnover in staff 
from time to time, but we are just frugal. My maiden name is 
McIntosh, I probably should tell you that.
    Mr. Lungren. This room has been redone, and one of the 
things that we had for this is to put in permanent cameras here 
in a little spot back there. Would there be any possibility we 
could do that in the Rules Committee so that there would 
actually be a mechanism by which it would be easier to have a 
feed from that room?
    Ms. Slaughter. One of the difficulties is the size of the 
room. It is very confining as you know. We have noticed an 
increase in the number of staff that Members who come to 
testify bring with them. We almost always have standing room 
and people piled around. I don't even know if you could see the 
cameras if you were in that room. But as I pointed out, you 
could put six of my hearing rooms within this single room. So 
we have probably the smallest hearing room in the Congress, yet 
we do the most work I think.
    Nonetheless, I think it would be a distraction to have two 
of these huge cameras in that very small room. As I pointed 
out, we are open at all times to C-SPAN and any other cameras 
that want to come in.
    Mr. Lungren. If I am not mistaken, I think those are 
cameras in those recessed places there and one in the back.
    Ms. Slaughter. The screens would be quite large.
    Mr. Lungren. If you were to make that request, I, for one, 
would be supporting an authorization for cameras somewhat like 
we have here or something similar.
    Ms. Slaughter. Well, what we would like to request----
    Mr. Lungren. What you said at the beginning of how 
important your work is, it is important. And all the number of 
bills that you deal with and the Rules that are set, because 
when I go home, I try to explain to my constituents that you 
have to understand the importance of the Rules, it establishes 
the ground rules. In some ways, even though you have permanent 
Rules, it is almost as if at the Super Bowl you have specific 
rooms for that game, that is what we do for every bill that is 
on the floor.
    My own personal belief, it would be good for us as a 
Congress if people could see that Members can come up, testify; 
they talk about why they think certain amendments should be; 
they get the response from your committee about whether it 
makes sense or not. And just my observation, I think it would 
be good, I would be happy to work with you if you could do 
something nonintrusive in your meeting room.
    Ms. Slaughter. If you are open to it, we would really like 
to expand that room. It is much too small for the kind of work 
we do and the number of staff and everyone that is necessary in 
there. Maybe if you want to take the press area and move them 
somewhere else so that we can go in there. I'm sure you know 
already, that the only rest room is on the third floor for that 
second and third floor. So we are really jammed up there, I am 
sure you have noticed when you are there.
    Mr. Lungren. I noticed when I have testified.
    Ms. Slaughter. Even the difficulty in getting to the 
testifying table. So we are perfectly open. We want everybody 
to know what we are doing, I think we were the first to make 
sure that all our material is quickly put on our web page, we 
think we have the best one in the House. All that information 
is there, easy to link to, hard copies are always available, 
staff is always available. We do everything we can and I agree 
with you, Rules is somewhat esoteric, but necessary, but we do 
need room to be able to do it. I thank you very much.
    Mr. Harper--McCarthy, I am sorry.
    [The statement of Ms. Slaughter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. McCarthy. No problem, Madam Chair. Thank you for your 
testimony. I was quite impressed with how many committees you 
actually--meetings you have already had. You did say in your 
report there that you gave one-third of all staff, is that also 
one-third of the budget?
    Ms. Slaughter. Yes, the staff budget, yes.
    Mr. McCarthy. I appreciate that. The only thing--if I could 
follow up on what Mr. Lungren said, if you were to expand, is 
there a room next door you could expand into? Isn't there an 
office next door by the hearing rooms or no?
    Ms. Slaughter. There is an office that is in constant use 
by all members of the Rules Committee on the Democratic side. 
We don't have room up there even for even decent accommodations 
for the minority. And it would really be a good thing if we 
could look at some way that we could expand.
    Mr. McCarthy. Would you be willing to put in cameras now, 
though?
    Ms. Slaughter. Excuse me?
    Mr. McCarthy. Would you be willing to put in cameras now?
    Ms. Slaughter. Right now?
    Mr. McCarthy. Yes.
    Ms. Slaughter. It is my belief that we are open as we can 
be, we are open to C-SPAN. We have reporters in there every 
single meeting, but the room that would be taken up by the 
screens would mean more people standing in the hall. As it is 
now, I have people standing out in the hall at every meeting 
who cannot get in that room.
    Mr. McCarthy. Having been to your hearings, yes.
    Ms. Slaughter. You have been there.
    Mr. McCarthy. And how will you bring those cameras in now 
though because they take up so much space.
    Ms. Slaughter. There is one little closet in the corner 
where C-SPAN comes, they operate out of the closet.
    Mr. McCarthy. But these are in a wall.
    Ms. Slaughter. It is the screens that I am most concerned 
about.
    Mr. McCarthy. Would you be opposed to putting in cameras 
without the screens?
    Ms. Slaughter. What would be the point.
    Mr. McCarthy. If you notice the screens are for the 
audience, and in Rules I agree with you it is so small you 
don't have much of an audience.
    Ms. Slaughter. No, we don't.
    Mr. McCarthy. I am just thinking the people outside. Having 
just come from the retreat and listening to the President and 
his discussion and talk of wanting to open up the transparency 
here more, I think----
    Ms. Slaughter. We are very transparent, as my aide just 
reminded me, having offices in the Capitol is different than 
under the Architect of the Capitol, there is not a lot of----
    Mr. McCarthy. I would be willing to work with you on that.
    Ms. Slaughter. We are doing all right, Mr. McCarthy, thank 
you very much.
    Mr. McCarthy. So you wouldn't be opposed to putting a 
camera in.
    Ms. Slaughter. We cannot in that small confined room do 
what you do here.
    Mr. McCarthy. I know. I am just asking to put a camera in.
    Ms. Slaughter. I think we are perfectly covered. I have not 
had any complaints, to be honest with you. Now I am sure from 
now on I will get a lot of them because I know the game. But we 
are doing fine up there.
    The Chairman. Thank you.
    Ms. Slaughter. Thank you very much.
    The Chairman. Mr. Frank and Mr. Bachus please.

    STATEMENT OF THE HON. BARNEY FRANK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Mr. Chairman, where is the 5-minute rule when 
you need it? Let me say, Mr. Chairman, I think I can be very 
transparent because, like C-SPAN, according to Ms. Slaughter, I 
am operating out of the closet. The Committee on Financial 
Services had a large number of hearings and markups last year, 
as members are aware, culminating in a major piece of 
legislation, we had other legislation as well. I believe on the 
operational procedural level relations between the majority and 
minority have been good and I am open to any questions.
    [The statement of Mr. Frank follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Bachus, anything you want to admit to?   

   STATEMENT OF THE HON. SPENCER BACHUS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Bachus. I have new hearing aids, and I can press a 
button----
    The Chairman. Push that button.
    Mr. Bachus. I have new hearing aids, I can press a button 
and interpret Barney's language from Alabama into 
Massachusetts.
    The Chairman. He doesn't leave much for interpretation.
    Mr. Bachus. The 1/3, 2/3 split, I think, has worked very 
well. We spent virtually all our allotment in the first 
session. The Chairman Frank's staff has been very cooperative 
on administrative issues, I think they work well together. Our 
only request would be that we be granted access to FinMart and 
Document Direct to follow our funding and payments in a timely 
manner. That wouldn't cost anything and it would greatly 
enhance our ability to manage our budget.
    It would also help green the Capitol and the alternative is 
to make copies of everything and it would also, I think, be--
could be a savings, but with the broad range of issues continue 
to confront the committee, we expect a very busy legislative 
year, and with that, I think the 2/3, 1/3 split it would be 
necessary for us to continue to meet our obligations as the 
loyal opposition.
    [The statement of Mr. Bachus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Frank. Mr. Chairman, I should say access of this access 
to a system, I will be honest with you, this is the first time 
I have heard of it, I am told by my staff that we were 
following the recommendation of this committee. I am open to 
discussions on it. I don't have any proprietary concerns. I 
will talk to the ranking member about it.
    The other thing I wanted to say on behalf of, I think 
myself and Mr. Bachus, we were historically funded not very 
high in the rankings. I think we were as busy as any other 
committee in the Congress last year. We were able to increase 
it some, but I still very guilty about a number of very hard 
working, very talented staff, virtually all of whom could be 
making more money in the private sector who put in enormous 
hours on both sides.
    And I just want to say, my greatest regret about this is 
that we can't do a better--we can not be fairer to these 
people, but I did want to acknowledge that. And if there is--I 
know there is not enough money around, but if there is, I think 
we can make as good a claim for more or for any.
    The Chairman. That is the purpose why we are having these 
hearings too, to be able to report back to where we have to 
report back to and hopefully----
    Mr. Frank. I think if you look at last year the number of 
markups, hearings, just--we could use roll call vote taker, we 
have 72 members, 71 members. We are the second biggest 
committee, the bigger committee is Transportation Oversight. 
The issues there are not nearly as likely to go to roll calls 
as our do. And just in general, I think the people who work for 
us are pretty overburdened and not adequately compensated.
    Mr. Chairman. I understand. Mr. Lungren.
    Mr. Lungren. Thank you very much and I thank both of you 
for appearing before us. I was looking at the budget Financial 
Services has come up over----
    Mr. Frank. And we appreciate that.
    Mr. Lungren. It was very low if you think about it. I go 
back to 104th Congress in comparison to now. And so I 
appreciate the fact that particularly in this last year, you 
have had a lot more front line duties so to speak on issues of 
timeliness and urgency that the American people fully 
appreciate and still you managed to remain within your budget.
    On Mr. Bachus's request, as I understand you are not asking 
that you have access to what the majority's doing, you are 
trying to have some sort of software that will allow you to 
keep track of your spending on an instantaneous basis so you 
can watch that more carefully?
    Mr. Bachus. And the committee already has software. I will 
acknowledge that I have not discussed it with Chairman Frank.
    Mr. Frank. I didn't even know about it. I didn't even know 
what it was.
    Mr. Bachus. I regret that I hadn't----
    Mr. Lungren. No, but I think there has been two 
committees--I think you are the second one who brought it up. I 
hope it is not a misunderstanding that the minority is trying 
to get information----
    Mr. Bachus. No, no, the----
    Mr. Frank. No one is thinking about that.
    Mr. Lungren [continuing]. Information.
    Mr. Frank. I am told what we do is what you do here, but I 
didn't know before it came up.
    Mr. Lungren. Okay.
    Mr. Bachus. These would be transactions that we make or 
requests.
    Mr. Lungren. I have no objection if you folks can work that 
out. It sounds to me instead of paperwork, you want a software 
system that allows you to follow your own bills rather than get 
a report at the end of the month.
    Mr. Bachus. Right. And our own financial accounting reports 
from the minority.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. Mr. Chairman, I just want to--I sit on this 
committee and the number of hearings that we do have and the 
priority of what has been going on in the Nation, the work that 
has been provided, you have been using your money quite 
thoroughly. And when you sit down to the size and scope of the 
bills we are taking up, you want to make sure you have all the 
information and the implications of what will transpire. One, I 
want to thank the chairman for doing the one-third to the 
minority, I appreciate your willingness to look at the software 
that we are talking about as well, but I do know as we go down 
the path that this committee is putting a lot of work in the 
process.
    And one thing that wasn't noted by these two, this is the 
second largest committee. Transportation is the only one 
larger. You have a lot of members on here and the size and 
scope of what you are going through the education for some of 
them to getting up on some of the issues----
    Mr. Frank. I appreciate that and the gentleman is a member 
of the committee. The nature of the issues, there is more 
controversy, I don't mean to denigrate Transportation and 
Infrastructure, it is not that it is any less important, but it 
is of a different order of controversy. I am sure we have more 
rollcalls than just about any committee in the Congress.
    Mr. Lungren. Mr. Chairman, I just say when Mr. Frank was on 
the Judiciary Committee, there were no controversial issues at 
that time.
    Mr. Frank. That is true.
    Mr. Lungren. Nor did he ever add to the controversy.
    The Chairman. Thank you very much. Thank you. Chairman 
Towns and Mr. Issa again.
    Mr. Issa. First of all I want to thank Barney for asking 
for more money, it will make it easier for us.
    The Chairman. Thank you and thank you for coming back in 
front of us, that is part of the reason we want to hear how you 
are doing, and if we can be helpful we always want to be 
helpful. So Chairman Towns.

   STATEMENT OF THE HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much, Chairman Brady and Ranking 
Member Lungren and all the members of the committee. I am 
pleased to be here to discuss the priorities and findings of 
the Committee on Oversight and Government Reform. Thank you for 
this opportunity.
    Last year I testified before the committee that our two top 
priorities were to conduct rigorous oversight of economic 
stimulus funding and the use of funds provided to our Nation's 
financial institution, through the Troubled Asset Relief 
Program, better known as TARP. I am pleased to join with the 
Ranking Member Darrell Issa to report back on our successful 
oversight during the past year.
    In 2009, the full committee conducted 12 oversight hearings 
on the financial sector, including hearings on government 
funding to AIG and Bank of America. The role of the credit 
rating agencies, and bonuses, and executive compensation. These 
oversight hearings lead directly to hundreds of millions of 
dollars being repaid to the Treasury. Several other financial 
institutions have repaid TARP funds to the Treasury.
    In addition, the full committee and its subcommittees 
convened several hearings overseeing economic stimulus 
spending. These hearings also produced tangible results in 
response to the testimony received at one hearing. I join with 
the Ranking Member, Mr. Issa, to write bipartisan legislation 
enhancing oversight resources for State and local governments 
which pass the house.
    In addition, the administration revised and improved its 
stimulus reporting practices and guidelines in response to our 
oversight. Our work on these 2 critical issues is just one 
aspect of the committee's work. The few committee and 
subcommittees convened 9 hearings in 2009 to examine the 
operational effectiveness of United States Government on issues 
ranging from cybersecurity, and Afghanistan contractors, to the 
Postal Service and this year's census.
    In response to requests for information from Federal 
agencies and the private sector, we received millions of pages 
of documents. Needless to say, the scope of this work requires 
appropriate resources, and I am pleased to report that the 
committee has used our 2009 budget very effectively and fully. 
At the end of the year, all of our staff positions were filled 
and 96 percent of the budgets had been expended with most of 
the remainder obligated for expenses that are pending payment.
    I have continued the tradition of allocating 1/3 of the 
committee's budget to the minority and I know Mr. Issa feels as 
strongly as I do about how important it is that this committee 
has sufficient resources, so we will be able to do our job and 
do our job effectively.
    In light of the current economic climate and our 
committee's mission of promoting government efficiency, our 
bipartisan request for this year is simply that we maintain the 
2010 funding level allocated in the committee funding 
resolution. Our primary expense is staff salaries given the 
complicated issues that this committee tackles both the 
majority and minority have assembled strong teams of 
investigative lawyers, policy analysts and staff with technical 
expertise. Many of our staffers have decades of experience in 
Congress or in the other branches of the Federal Government.
    And many could easily receive much higher salaries from the 
other employers, but they stay here with us, maintaining our 
plan 2010 funding level will allow us to maintain this talented 
and dedicated staff and enable us to incur prudent and 
necessary expenses for technology and travel in support of our 
mission.
    Let me conclude by thanking you, Chairman Brady and Ranking 
Member Lungren, and all the members of the committee for your 
support over the past year and look forward to working with you 
to ensure effective oversight for the rest of this Congress. 
Thank you for that.
    The Chairman. Thank you.
    [The statement of Mr. Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, Ranking Member Lungren. 
No committee could have worked on a more bipartisan basis than 
this one has. Chairman Towns has been fair in the allocation of 
resources and we have worked together to find ways to get win-
wins on the use of those dollars often not duplicating our 
efforts, but rather cutting them in half. The truth is though 
that the Oversight Committee is grossly underfunded. Yes, we 
live within our budget, each of us being within a few thousand 
dollars of full utilization. We did so partially by not 
staffing up at the beginning of the year and reserving funds 
for later in the year as our oversight role built. Which means 
that by definition, a full year in 2010 will be harder to 
achieve within a budget that last year was zeroed as far as 
growth, and this year increases only by 3 percent.
    The Chairman has done everything he can do within his 
power. We attempted to keep our costs down, but the truth is 
that this President has said he wants the most transparent 
government, that requires that we work on the bureaucracy that 
lies between the administration and ourselves in a cooperative 
way. The Chairman has coauthored legislation that would bring 
standard database management systems throughout the government. 
Our committee will have to shepherd that because frankly, the 
bureaucracy is pushing back on any utilization of common 
databases that create that transparency. Our work with the IGs, 
both regular and special IGs, means we each have less staff 
than they have IGs. We only have about one person for every 12 
to 15 top level IGs that we work with.
    The whistleblower level is rising and just last week, this 
committee had to go through a quarter of a million documents in 
1 week in preparation for the oversight of the Federal Reserve 
of New York's bailout of AIG. Quite frankly, we could not post 
those in good faith because we didn't have the resource to 
ensure that no personal information was on it and the 
administration also did not seem to have those resources. So 
rather than take a chance on having Social Security or other 
information posted, we have to be very selective on what we 
made available to the public.
    Mr. Chairman, Ranking Member, that is unacceptable. This 
committee is a committee of transparency and oversight. The 
beginning of the last Congress one of the justifications for 
zero increase was that other committees would do oversight. I 
have monitored that. The type of oversight we do has not been 
done in any other committee. Committees have continued to do 
the good work that they do, they have done it at a high level, 
but a 3 percent increase in those committees could never have 
begun to organize the kind of cross-government investigations 
that Chairman Towns's people and my people do.
    I know that this year we will not be dealing with any 
anything other than the predetermined modest increase, but I 
would make several suggestions. First of all, this committee 
needs to invest on a Congress wide basis in items in the way of 
technology that will reduce the cost individual committees, 
that includes advance search, because although our committee is 
one of the premiere committees of searching through endless 
documents, it is very clear that all committees have been 
getting voluminous documents to review and they are not going 
to get human beings do it, they will have systems do it.
    Secondly, I regret our budgeting process does not meet a 
world class basis. I have lived only 1 year as a ranking member 
with this budget, but I must tell you in the private sector the 
idea that your budget doesn't roll over, that in fact, you have 
to try to calculate how to get everything into this year so you 
don't give it back not having it next year is typical 
government foolishness. It is exactly what our committee fights 
against. We don't need or want or should have a use it or lose 
it. I would strongly suggest this committee, in its own 
deliberations, begin a modernization of House budgets. I would 
suggest that as much as 25 percent of a committee's budget 
should be able to be rolled over essentially year to year in 
perpetuity. I know that requires action of the Congress, but I 
also know that frugalness starts off with an incentive to save 
and to have it in the future if needed. I know that that may be 
difficult, but I would suggest strongly that that in addition 
to additional slots that members may fill with either 
inexpensive or, in some cases, industrially free individuals 
also would be of benefit. Both the chairman and I have 
opportunities and space to put additional staff to work. We 
could, in some cases, find fellows and others that could be 
made available to us. However, both the chairman and myself and 
minority we filled all our staffs, we used all our staffs. So I 
know that a lot of what we do here is pro forma, but I hope 
that I have delivered you some ideas that your committee can do 
to help all of our committees in the future and I thank you for 
your patience and understanding and yield back.
    The Chairman. Thank you. Mr. Lungren.
    Mr. Lungren. Thank you very much for the testimony of both 
of you and thank you for the work that you do.
    Mr. Issa, in your written testimony, you mentioned that the 
committee has been upgrading its technology to work more 
efficiently. Has the committee experienced any issues regarding 
information security as you have invested in these new 
technologies? And has the HIR for the House worked closely 
enough with you in identifying any security problems and 
attempting to ameliorate those problems?
    Mr. Issa. Thank you, Mr. Lungren. I do not fault HIR for 
the failures of security alone. Cybersecurity, which is a major 
area of emphasis for our committee to try to make sure that on 
a governmentwide basis that we upgrade our systems and our 
capability is sorely lacking. Mr. Lungren, you and I both have 
worked on that in the past in other committee activities. But 
we did have a breakdown, we were one of the 19 sites that were 
hacked and brought down, and that was in spite of meeting all 
the requirements that were known at the time by HIR. That is 
only going to become larger as we have more access to the 
public and make more access.
    So I won't fault House Administration, I am not going to 
fault any of the people who work in Congress because this is a 
governmentwide problem, but it is an example of the kind of 
thing that cannot be done by one committee alone. We can invest 
in better search capability to get through documents and to 
redact sensitive information and share it with other committees 
it allowed by the license, but to actually create a better 
firewall system than we have today is going to have to be 
something this committee is going to have to look at closely.
    The Chairman. Ms. Lofgren? McCarthy? Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman, thank you all. I 
really appreciate the work that you are doing. And I know that 
you are saying that you are quite overwhelm and need some more 
help. The only other thing I might suggest as happens 
sometimes, maybe it doesn't happen all the time, is a little 
more communication with the committees of jurisdiction over 
some of the issues that you are most interested in providing 
that oversight for. Because sometimes we don't have a chance to 
have that communication and we would like to be actually more 
supportive of your efforts in that way and that might help. 
Thank you.
    Mr. Towns. Thank you very much, thank you.
    The Chairman. Thank you.
    Mr. Issa. Thank you all.
    The Chairman. We have now heard from all committees which 
this committee provides funding for. And that concludes the 
business of this hearing, the committee funding hearing stands 
adjourned. And we would like to take about a 5-minute recess 
before we reconvene again for the next hearing, thank you.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]

</pre></body></html>
